App. 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION TO
A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS GOV­
ERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY OR­
DER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court
of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
9th day of June, two thousand twenty.
PRESENT:
ROSEMARY S. POOLER,
REENARAGGI,
WILLIAM J. NARDINI,
Circuit Judges.

App. 2
Anthony John Ripa,
Plaintiff-Appellant,
v.

19-1293

Stony Brook University,
Defendant-Appellee.
FOR PLAINTIFFAPPELLANT:

Anthony John Ripa, pro se,
New York, NY.

FOR DEFENDANTAPPELLEE:

Amit R. Vora, Assistant
Solicitor General, Steven C.
Wu, Deputy Solicitor Gen­
eral, Barbara D. Underwood,
Solicitor General, for Letitia
James, Attorney General of
the State of New York,
New York, NY.

Appeal from a judgment of the United States Dis­
trict Court for the Eastern District of New York
(Mauskopf, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Plaintiff-Appellant Anthony John Ripa, proceed­
ing pro se, appeals from the April 4, 2019 judgment of
the United States District Court for the Eastern Dis­
trict of New York (Mauskopf, J.) dismissing his claims
against Defendant-Appellee Stony Brook University
(“SBU”) under 42 U.S.C. § 1983, Title EX of the

App. 3
Education Amendments of 1972, and Title VII of the
Civil Rights Act of 1964, and denying his motions for
recusal of Judges Azrack and Locke and disqualifica­
tion of opposing counsel. We assume the parties’ famil­
iarity with the underlying facts, the procedural history
of the case, and the issues on appeal.
Whether a defendant is entitled to Eleventh
Amendment immunity is a legal question that we re­
view de novo. See National Ass’n for Advancement of
Colored People v. Merrill, 939 F.3d 470, 475 (2d Cir.
2019).1 “We review de novo a district court’s dismissal
of a complaint for lack of subject matter jurisdiction.”
Amidax Trading Grp. v. S.W.I.F.T. SCRL, 671 F.3d 140,
145 (2d Cir. 2011). Finally, “[w]e review de novo a dis­
trict court’s dismissal of a complaint pursuant to Rule
12(b)(6), construing the complaint liberally, accepting
all factual allegations in the complaint as true, and
drawing all reasonable inferences in the plaintiff’s fa­
vor.” Chambers v. Time Warner, Inc., 282 F.3d 147, 152
(2d Cir. 2002). The complaint must plead “enough facts
to state a claim to relief that is plausible on its face.”
BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007); see
also Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).

1 Whether Eleventh Amendment immunity “constitutes a
true issue of subject matter jurisdiction or is more appropriately
viewed as an affirmative defense” has not yet been decided by the
Supreme Court or this Court. See Carver v. Nassau Cty. Interim
Fin. Auth., 730 F.3d 150, 156 (2d Cir. 2013) (citing Wisconsin
Dep’t ofCorr. v. Schacht, 524 U.S. 381, 391 (1998) (leaving ques­
tion open)). We need not pursue the matter here because the
answer does not affect our decision to affirm.

App. 4
The district court properly dismissed Ripa’s Sec­
tion 1983 claims under the Eleventh Amendment,
which precludes suits against states unless the state
expressly waives its immunity or Congress abrogates
that immunity, neither of which occurred here. CSX
Transp., Inc. v. N.Y. State Office ofReal Prop. Servs., 306
F.3d 87,94-95 (2d Cir. 2002). State universities such as
SBU are arms of the state for purposes of the Eleventh
Amendment and are therefore entitled to Eleventh
Amendment immunity. See Dube v. State Univ. of N.Y.,
900 F.2d 587, 594 (2d Cir. 1990). Though Ripa argues
that the Eleventh Amendment cannot bar the prospec­
tive relief he seeks—the termination of SBU’s federal
funding—the Ex Parte Young2 exception to Eleventh
Amendment immunity for prospective relief applies
only when a state official is sued, which Ripa has not
done. See id. at 594-95.
The district court also properly dismissed Ripa’s
Title IX claims. First, Ripa lacked standing to bring a
Title IX claim based on the existence of a Women’s
Studies Department and the lack of a Men’s Studies
Department. This does not amount to a concrete injury,
such as the denial of an educational opportunity, suffi­
cient to meet the injury-in-fact requirement of Article
III standing. See Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1548 (2016). To the extent Ripa alleges that the exist­
ence of a Women’s Studies program discriminated
against men, he has not shown any ensuing concrete
harm to him. To the extent he alleges injury from the
2 209 U.S. 123 (1908).

App. 5
lack of a Men’s Studies program, the alleged injury is
only “conjectural or hypothetical.” Gully v. Nat’l Credit
Union Admin. Bd., 341 F.3d 155,160 (2d Cir. 2003).
Second, Ripa failed to state a hostile educational
environment claim under Title IX. Title IX provides
that “[n]o person in the United States shall, on the ba­
sis of sex, be excluded from participation in, be denied
the benefits of, or be subjected to discrimination under
any education program or activity receiving Federal
financial assistance[.]” 20 U.S.C. § 1681(a). To state a
hostile educational environment claim under Title IX,
a plaintiff must plausibly allege that sex-based dis­
criminatory conduct “created an educational environ­
ment sufficiently hostile as to deprive [him] of ‘access
to the educational opportunities or benefits’ provided
by” his school and that the individual defendants had
actual knowledge of the discrimination and failed to
respond adequately. Hayut v. State Univ. of N.Y., 352
F.3d 733, 750 (2d Cir. 2003) (quoting Davis v. Monroe
Cty. Bd. ofEduc., 526 U.S. 629,650 (1999)).
Ripa’s complaint alleges that Professor Robert
Cserni created such a hostile environment by engaging
in “demographically based slander” when he called
Ripa “privileged”; he gave one of Ripa’s assignments
a grade of zero and labelled it “Incomplete/missing or
irrelevant”; and he used a female student’s work as an
example of a well-written assignment. These allega­
tions do not plausibly allege intentional discrimination
actionable under Title IX. Although Ripa asserts that
Professor Cserni took these actions because he be­
lieved that Ripa was a white male, Ripa did not

App. 6
support that conclusion with any facts indicating that
Professor Cserni was motivated by Ripa’s sex or gen­
der. Nor do the additional allegations in Ripa’s
amended complaint, including SBU’s advertisement of
and support for programs targeted toward women, of­
fer of free feminine hygiene products, or Ripa’s volun­
tary attendance at a Ph.D. student’s presentation that
proposed a purportedly anti-male research project
plausibly allege discrimination on the basis of sex or
amount to a hostile environment. See Twombly, 550
U.S. at 555 (“Factual allegations must be enough to
raise a right to relief above the speculative level!.]”).
We also conclude that the district court properly
dismissed Ripa’s Title VII claims for failure to state a
claim. Even if Ripa’s student assistant position at SBU
qualified him as an employee for purposes of Title VII,
Ripa did not allege any facts showing that he was sub­
jected to an adverse employment action. To make out a
prima facie case of discrimination under Title VII, a
plaintiff must allege, inter alia, that he was subject to
an adverse employment action under circumstances
giving rise to an inference of discrimination. See
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802
(1973); Shumway v. United Parcel Serv., Inc., 118 F.3d
60, 63 (2d Cir. 1997). The sole employment action Ripa
alleges is that his boss stated that her superiors were
female and that she liked that fact. This does not con­
stitute an adverse action. See Vega v. Hempstead Union
Free Sch. Dist., 801 F.3d 72,85 (2d Cir. 2015) (“A plain­
tiff sustains an adverse employment action if he or she
endures a materially adverse change in the terms and

App. 7
conditions of employment.” (internal quotation marks
and citation omitted)).
The district court also acted in its discretion in
denying Ripa’s motion to recuse Judges Azrack and
Locke as these judges were no longer assigned to his
case. See United States v. Lovaglia, 954 F.2d 811, 815
(2d Cir. 1992).
Insofar as Ripa argues that Judge Mauskopf
should have recused herself or been substituted, he did
not file an amended notice of appeal from the denial of
the motion for her recusal, which occurred after he had
filed his appeal from the judgment. Accordingly, we
lack jurisdiction over the district court’s post judgment
decision. See Sorensen v. City of New York, 413 F.3d
292,295- 96 (2d Cir. 2005); Fed. R. App. R 4(a)(4)(B)(ii).
In any event, Ripa’s claim that Judge Mauskopf was
biased against him lacks support in the record. The
fact that she dismissed his complaint and denied re­
consideration does not demonstrate bias. See Liteky v.
United States, 510 U.S. 540,555 (1994) (“[Jludicial rul­
ings alone almost never constitute a valid basis for a
bias or partiality motion.”).
We also identify no abuse of discretion in the de­
nial of Ripa’s motion to disqualify, see Telectronics Pro­
prietary, Ltd. v. Medtronic, Inc., 836 F.2d 1332,1335 (2d
Cir. 1988), as that motion lacks a foundation in law or
fact. Ripa sought disqualification based on counsel’s
purportedly making “false statements.” But the state­
ments at issue were either SBU’s legal arguments in
support of its motion to dismiss and in opposition to

App. 8
Ripa’s various motions, or, at most, constituted minor
factual misstatements that had no bearing on the mer­
its of the case.
We have reviewed the remainder of Ripa’s argu­
ments and conclude that they are without merit. For
the foregoing reasons, the judgment of the district
court is AFFIRMED, and Ripa’s motion to strike
SBU’s oral argument statement is DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

App. 9
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X
MEMORANDUM
AND ORDER

ANTHONY JOHN RIPA,
Plaintiff,

17-CV-4941 (RRM) (JO)

-againstSTONY BROOK UNIVERSITY

(Filed Apr. 4, 2019)

Defendant.
X
ROSLYNN R. MAUSKOPF, United States District
Judge.
This action was recently re-assigned to the under­
signed and Magistrate Judge James Orenstein. Pend­
ing before the Court are multiple motions filed by
plaintiff Anthony John Ripa seeking recusal of Judges
Locke and Azrack, the judges who dismissed plaintiff’s
original complaint; reconsideration of their rulings
with regard to dismissal; and a motion by defendant to
dismiss the Amended Complaint filed by plaintiff on
September 28, 2018. The court is fully familiar with
the procedural history and the record in this action.
For the reasons set forth below, the Court finds moot
plaintiff’s request to have the judges originally as­
signed to this action replaced, denies plaintiff’s motion
for reconsideration, dismisses the federal claims
brought in plaintiff’s Amended Complaint, and de­
clines to exercise supplemental jurisdiction on any re­
maining state claims.

App. 10
Recusal and Reconsideration
Disposing of plaintiff’s recusal motions and his re­
quests for reconsideration of the rulings by Judges
Azrack and Locke dismissing plaintiff’s original com­
plaint are straightforward. First, as to recusal, this
case has been re-assigned for reasons wholly unrelated
to plaintiff’s request. As such, the request is moot. Sec­
ond, with respect to reconsideration of Magistrate
Judge Locke’s Report and Recommendation (“R&R”
(Doc. No. 11)) and Judge Azrack’s Order adopting it
(Doc. No. 15), plaintiff has provided no valid basis for
reconsideration.
Reconsideration is “an extraordinary remedy to be
employed sparingly in the interests of finality and con­
servation of scarce judicial resources.” Butto v. Collecto
Inc., 845 F. Supp. 2d 491, 494 (E.D.N.Y. 2012) (quoting
Trans-Pro Logistic Inc. v. Coby Electronics Corp., No.
05-CV-1759 (CLP), 2010 WL 4065603, at *1 (E.D.N.Y.
Oct. 15, 2010)) (internal quotation marks omitted). A
party requesting reconsideration must adduce control­
ling law or facts that were overlooked by the Court that
might materially have influenced its conclusion. See
Shrader v. CSXTransp., Inc., 70 F.3d 255, 257 (2d Cir.
1995); Perez v. New York City Dep’t ofCorr., No. 10-CV2697 (RRM) (RML), 2013 WL 500448, at *1 (E.D.N.Y.
Jan. 17, 2013). Moreover, “[a] motion for reconsidera­
tion may not ... be used as a vehicle for relitigating
issues already decided by the Court.” Webb v. City of
New York, No. 08-CV-5145 (CBA), 2011 WL 5825690, at
*1 (E.D.N.Y. Nov. 17,2011) (quoting Davidson v. Scully,
172 F. Supp. 2d 458, 461 (S.D.N.Y. 2001)). Plaintiff’s

App. 11
request does not demonstrate any clear error, highlight
a change in controlling law, or present new evidence.
See Montblanc-Simplo GmbH v. Colibri Corp., 739
F. Supp. 2d 143, 147 (E.D.N.Y. 2010). Nor does the
letter establish that reconsideration is necessary to
prevent manifest injustice. Id. As such, plaintiff’s re­
quests for reconsideration of the orders of Judges
Locke and Azrack (Doc. Nos. 16, 22) are denied
The Amended Complaint
Plaintiff has timely filed an Amended Complaint
(Doc. No. 20-3) as permitted by Judge Azrack’s ruling.1
The Amended Complaint consists of 38 pages, largely
encompassing an unsigned draft of plaintiff’s original
complaint with the same attachments, setting forth
the same factual allegations and raising the same
claims. These claims, which span events in the fall se­
mester of 2016, fare no better the second time around
before this court than they did before Judges Azrack
and Locke, and for the reasons set forth in the R&R
and Judge Azrack’s order adopting it, this Court finds
that all of plaintiff’s claims in the Amended Complaint
that are duplicative of those brought in the original
complaint merit dismissal.

1 The Amended Complaint can be found as Exhibit A to the
Declaration of Toni E. Logue, dated October 3, 2018 (Doc. No. 20).
As it was unpaginated in its original form, the court adopts the
ECF pagination for the Amended Complaint.

App. 12
Much of the rest of plaintiff’s Amended Complaint
consists of arguments directed at Judge Locke’s R&R,
for which reconsideration has been denied as above,
or personal attacks directed-toward Judge Locke. The
final two-and-one-half pages, captioned “Recharacter­
izing previous complaint” and “Adding to previous com­
plaint,” arguably raise new material during the period
that spans May 2017 through August 28, 2018. (Am.
Compl. at 36-38.) Specifically, Plaintiff adds claims
about: 1) receiving Stony Brook emails or seeing adver­
tisements directed toward women relating to academ­
ics, health or sports; 2) receiving a B+ instead of his
allegedly never receiving a grade less than a B+; 3)
posters regarding celebrating diversity; “Dissent: Cur­
rents and Counter-Currents,” sexual assault, or seek­
ing female research subjects; and 4) about another
student’s PhD Research Proficiency Evaluation. {Id.)
On the last page of his Amended Complaint, Plaintiff
states that he is now increasing the damages he is
seeking from “$1,000,000 to $2,000,000 which [he] de­
mand [s] be handed over forthwith.” Plaintiff also seeks
for Defendant to lose its federal funding, and that “the
entire complaint actually be read this time.” (Id.) For
the same reasons plaintiff’s original complaint fails, so
too do these new claims.

App. 13
Standard of Review2
A motion to dismiss under Rule 12(b)(6) requires
a court to evaluate the legal, rather than factual, suffi­
ciency of a complaint. “To survive a motion to dismiss,
a complaint ‘must contain sufficient factual matter, ac­
cepted as true, to state a claim to relief that is plausible
on its face.’” Cohen u. Rosicki, Rosicki & Assocs., RC.,
897 F.3d 75,80 (2d Cir. 2018) (quoting Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009)). “A claim has facial plausi­
bility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.”
Iqbal, 556 U.S. at 678 (citation omitted). Detailed facts
are not required, but “[tjhreadbare recitals of the ele­
ments of a cause of action, supported by mere conclusory statements, do not suffice.” Id. (citation omitted).
The determination of whether “a complaint states a
plausible claim for relief” is “a context-specific task
that requires” the court to “draw on its judicial experi­
ence and common sense.” Id. at 69 (citation omitted).
Furthermore, it is axiomatic that pro se com­
plaints are held to less stringent standards than plead­
ings drafted by attorneys, and the Court is required to
read the plaintiff’s pro se complaint liberally and
2 In addition to dismissing this action for failure to state a
claim, the court finds, for the same reasons set forth by Judge
Locke, that this court lacks subject matter jurisdiction for any
claims in the Amended Complaint brought under 42 U.S.C.
§ 1983 as barred by the Eleventh Amendment. See Dube v. State
Univ. of New York, 900 F.2d 587, 594-95 (2d Cir. 1990) (suit
brought against State University of New York under Section 1983
is barred by the Eleventh Amendment).

App. 14
interpret it to raise the strongest arguments it sug­
gests. Erickson v. Pardus, 551 U.S. 89, 94 (2007);
Hughes v. Rowe, 449 U.S. 5,9 (1980); Sealed Plaintiff v.
Sealed Defendant #1, 537 F.3d 185, 191-93 (2d Cir.
2008).
Title VTI
To the extent that plaintiff attempts to plead in his
Amended Complaint claims of discrimination based
on gender and/or other protected characteristics under
Title VII for the period 2017 through 2018, those
claims fail as, once again, plaintiff has failed to allege
the necessary employer-employee relationship.
Title VII provides, in relevant part, that “[i]t shall
be an unlawful employment practice for an employer
... to discriminate against any individual with respect
to [her] compensation, terms, conditions, or privileges
of employment, because of such individual’s race, color,
religion, sex, or national origin.. . .” 42 U.S.C. § 2000e2(a). As noted by the Second Circuit, “Title VII is an
employment law, available only to employees (or pro­
spective employees) seeking redress for the unlawful
employment practices of their employers.” Kern v. City
of Rochester, 93 F.3d 38, 45 (2d Cir. 1996). (internal ci­
tations omitted). To be held liable under Title VII for
unlawful practices, an employer-employee relationship
must have existed between the parties at the time of
the alleged discrimination. See id. “Consequently, the
existence of an employer-employee relationship is a
primary element of Title VII claims.” Gulino v. New

App. 15
York State Educ. Dep’t, 460 F.3d 361,370 (2d Cir. 2006).
To that end, the relationship between a student and a
university is insufficient to maintain a claim under the
statute. See Morales v. New York, 22 F. Supp. 3d 256,
271 (S.D.N.Y. 2014) (action plaintiff student, not an
employee, not protected by Title VII).
Here, Ripa has failed to allege the requisite em­
ployer-employee relationship with regard to the claims
proffered in the Amended Complaint. Plaintiff states
that it is “technically true” that he worked as a parttime student assistant in the Math Department on and
off from 2012 to 2017. (Am. Compl. at 34.) He adds that
from 2017 to 2018 “my boss stated ‘My boss is female.
My boss’s boss is female. My boss’s boss’s boss is fe­
male. And I like it that way.” (Id. at 35.) However, Ripa
does not allege anywhere in his Amended Complaint
that his status changed from student assistant to em­
ployee. Moreover, it is difficult to see how this state­
ment amounts to any kind of gender discrimination. As
such, since, as a matter of law, Ripa has not alleged
facts to support the necessary employment relation­
ship, nor has he alleged any type of discriminatory con­
duct during this period, his Title VII claims must fail.
Title IX
As before, Ripa’s attempt to allege claims under
Title IX in his Amended Complaint fail. Title IX pro­
hibits educational institutions receiving federal finan­
cial assistance from discriminating against students or
employees based on sex and provides a private cause

App. 16
of action for violations thereof. See 20 U.S.C. § 1681;
see also North Haven Bd. ofEduc. v. Bell, 456 U.S. 512,
520-34,102 S.Ct. 1912,1917-25 (1982); see also Cannon
v. Univ. of Chicago, 441 U.S. 677, 99 S.Ct. 1946, 60
plaintiff showing: (1) that he was subjected to discrim­
ination in an educational program; (2) that the pro­
gram receives federal assistance; and (3) that the
discrimination was based on sex. Manolov v. Borough
of Manhattan Cmty. Coll., 952 F. Supp. 2d 522, 533
(S.D.N.Y. 2013). Further, a plaintiff can establish a
hostile educational environment claim under the stat­
ute if he demonstrates “that he subjectively perceived
the environment to be hostile or abusive and that the
environment objectively was hostile or abusive, that
is, that it was permeated with discriminatory intimi­
dation, ridicule, and insult sufficiently severe or per­
vasive to alter the conditions of his educational
environment.” Papelino v. Albany Coll, of Pharmacy of
Union Univ., 633 F.3d 81, 89 (2d Cir. 2011). To survive
a motion to dismiss, either type of claim requires spe­
cific allegations of intentional discrimination or cir­
cumstances “giving rise to a plausible inference of [. . .
] discriminatory intent.” See Yusuf v. Vassar Coll., 35
F.3d 709, 712-14 (2d Cir. 1994). Simply, “[b]ald asser­
tions and conclusions of law will not suffice.” Rodriguez
v. N.Y. Univ., No. 05-cv-7374, 2007 WL 117775, at *5
(S.D.N.Y. Jan. 16,2007) (quoting Leeds v. Meltz, 85 F.3d
51, 53 (2d Cir. 1996)).
Here, plaintiff’s Title IX claims fail as a matter
of law. Ripa’s additional allegations relate to the fol­
lowing: 1) receiving Stony Brook emails or seeing

App. 17
advertisements directed toward women relating to
academics, health or sports; 2) receiving a B+ instead
of his allegedly never receiving a grade less than a
B+; 3) seeing posters regarding celebrating diversity,
“Dissent: Currents and Counter-Currents,” sexual as­
sault, or seeking female research subjects; and 4) at­
tending another student’s PhD Research Proficiency
Evaluation. (Am. Compl. at 30-37.) Plaintiff has failed
to allege how walking by posters, receiving emails or
voluntarily attending a student’s PhD evaluation that
he may not like, rises to the level of an injury. He also
complains generally that the University lacks a men’s
studies program, but does not tie that comment to any
type of discriminatory intent or injury to him.3
Moreover, plaintiff alleges that “[i]n the aftermath
of my ill-treatment at the hands of Stony Brook, I re­
ceived my first B+ to date in any class at Stony Brook.”
This grade appears to be from a class other than the
women’s studies class taught by Mr. Cserni, since in
that class, Plaintiff received a grade of A-. Id.; see Davis
Monroe County Bd of Educ., 526 U.S. 629, 652 (1999)
(“[N]or do we contemplate, much less hold, that a mere
‘decline in grades is enough to survive’ a motion to dis­
miss.”). Moreover, the grade of A- that he received in
the class taught by Mr. Cserni, which is the subject
matter of his complaint, does not constitute a “decline

3 In fact, plaintiff agrees that the Men’s Alliance club re­
ceives funding as do other clubs, including those related to women
and diversity. Am. Compl. at 36.

App. 18
in grades” as Ripa himself notes that he has not re­
ceived anything less than a B+ while at the University.
Ripa’s grievances, newly-pled in his Amended
Complaint, are in no way linked to intentional discrim­
ination based on sex. Accordingly, because he has failed
to allege facts from which one could plausibly infer
discriminatory intent, any Title IX claim must fail.4
Leave to Amend and Supplemental Jurisdiction
“A pro se complaint ‘should not [be] dismiss [ed]
without [the court] granting leave to amend at least
once when a liberal reading of the complaint gives any
indication that a valid claim might be stated.
Grullon, 720 F.3d at 139 (first and second alterations
in original) (quoting Chavis v. Chappius, 618 F.3d 162,
170 (2d Cir. 2010)). “Leave to amend may properly be
denied if the amendment would be ‘futil[e],’ ” id. at 140
(alteration in original) (quoting Foman v. Davis. 371
U.S. 178, 182 (1962)), or if the plaintiff has “re­
peated [ly] fail[ed] to cure deficiencies” through prior
amendments, Ruotolo v. City ofNew York, 514 F.3d 184,
5 »

4 To the extent that Ripa attempts to allege a Title IX hostile
education environment, such claim fails as well. Because such
claims import the traditional Title VII hostile work environment
jurisprudence, see Hayut v. State Univ. ofN.Y., 352 F.3d 733, 744
(2d Cir. 2003), Ripa must establish that the environment was
permeated with discriminatory intimidation, ridicule, and insult
sufficiently severe or pervasive as to alter the conditions of
the educational environment. See Papelinov. Albany College of
Pharm. Of Union Univ., 633 (F.3d 81, 89 (2d Cir. 2011) (citation
omitted). None of the allegations in Ripa’s Amended Complaint
discussed above rise to the level of this standard.

App. 19
191 (2d Cir. 2008) (quoting Foman, 371 U.S. at 182).
Whether or not to grant leave to amend is a decision
reserved to the sound discretion of the district court.
See Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir.
1988). Here, Ripa has been given multiple opportuni­
ties to plead his claims. His Title VII and section 1983
claims fail as a matter of law as he has been unable and will be unable - to cure the deficiencies that gave
rise to dismissal. His Title IX claims have been pled
with factual specificity, but do not rise to an actionable
claim. As such, amendment would be futile.
As this Court has dismissed all federal claims
sought to be brought in plaintiff’s Amended Com­
plaint, and has denied leave to amend, the Court de­
clines to exercise supplemental jurisdiction over any
remaining state law causes of action after balancing
“judicial economy, convenience, fairness and comity.”
Valencia v. Lee, 316 F.3d 299,305 (2d Cir. 2003). Comity
and judicial economy augur in favor of bringing state
claims in state court. This litigation has throughout
been in its initial stages, and Ripa’s ability to bring
state claims in a state forum is unaffected by the liti­
gation here.
CONCLUSION
For the reasons stated herein, Ripa’s motions for
reconsideration and recusal are denied. The Univer­
sity’s motion to dismiss the Amended Complaint is
granted. All federal claims are dismissed, and the
Court declines to exercise supplemental jurisdiction

App. 20
over any state law claims. The Clerk of Court is di­
rected to enter judgment accordingly, and to close this
case. The Clerk of Court is also directed to send a copy
of this Memorandum and Order and the accompanying
judgment to Ripa, and note the mailing on the docket.
The Court certifies pursuant to 28 U.S.C. § 1915(a)(3)
that any appeal from this Memorandum and Order
would not be taken in good faith, and therefore, in
forma pauperis status is denied for the purpose of any
appeal. See Coppedge v. United States, 369 U.S. 438,
444-45 (1962).
Dated: Brooklyn, New York
April 4, 2019
SO ORDERED
/s/ Roslynn R. Mauskopf_____
ROSLYNN R. MAUSKOPF
United States District Judge

App. 21
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X

JUDGMENT

ANTHONY JOHN RIPA,

17-CV-4941 (RRM) (JO)

Plaintiff,

(Filed Apr. 4, 2019)

-againstSTONY BROOK UNIVERSITY
Defendant.
X

A Memorandum and Order having been issued
this day dismissing all federal claims in this action,
and declining to exercise supplemental jurisdiction
over any remaining state law claims, it is hereby
ORDERED, ADJUDGED AND DECREED that
plaintiff take nothing of defendant, and that this ac­
tion is hereby dismissed.
Dated: Brooklyn, New York
April 4, 2019
SO ORDERED
/s/ Roslynn R. Mauskopf_____
ROSLYNN R. MAUSKOPF
United States District Judge

